GR-50-98-001
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE NEW MELLE, MISSOURI POLICE DEPARTMENT
AWARD NUMBER 96-CF-WX-0028
Audit Report Number GR-50-98-001
November 13, 1997

 
AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the New Melle Missouri Police Department (New Melle). New Melle
received $481,412 to hire or rehire five sworn police officers under the COPS Funding
Accelerated for Smaller Towns (FAST) program and supplemental Universal Hiring Program
(UHP). 
The purpose of the grant was to enhance community policing efforts. Since the grant's
inception, the number of officers performing community policing activities has increased
by the number of positions funded under the awards. New Melle was making a good faith
effort to fill grant-funded positions in a timely manner and, had taken steps to retain
these officers at the end of the grant period. We noted that New Melle's share of the COPS
FAST costs were paid from the Village of New Melle's (Village) general revenue account and
payment did not affect the level of funds already budgeted for law enforcement. However,
our audit disclosed the following:

- Grant awards were $63,087 greater than necessary.
- $16,343 was used to pay for salaries and positions in excess of grant limitations.
- Officer Progress Reports were not submitted for 6 of the 12 officers hired in 1996, 2
  of 5 Financial Status Reports were submitted to the Office of Justice Programs (OJP) late,
  and program costs were inaccurately reported on the Financial Status Reports. 
#####